  Office of Inspector General
  Central Audit Division
  Audit Report




                     WATER




Proactive Approach Would Improve EPA’s
   Water Quality Standards Program


       Report No. 2000-P-001385-00023


               September 29, 2000
Inspector General Division   Central Audit Division
 Conducting the Audit:       Kansas City, Kansas


Program Office Involved:     Office of Water


Auditors Conducting Audit:   Doug LaTessa
                             Stephanie Oglesby
                             Denton Stafford
                                        September 29, 2000

MEMORANDUM

SUBJECT:       Proactive Approach Would Improve EPA’s
               Water Quality Standards Program
               Report No. 2000-P-001385-00023

FROM:          Connie Walton
               Audit Manager

TO:            J. Charles Fox
               Assistant Administrator for Water

       Attached is our report entitled Proactive Approach Would Improve EPA’s Water Quality
Standards Program. We discussed our findings with your staff and issued a draft report. We
summarized your response to the recommendations in the final report and included your response
in Appendix I.

ACTION REQUIRED

        In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide this office a written response to the audit report within 90
days of the final audit report date. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to close this
report. We appreciate the cooperation your staff provided throughout the audit.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions OIG recommends. This audit report represents the
opinion of OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

       We have no objections to the release of this report to the public. If you have any
questions, please call me at (913) 551-7007. Please refer to report number 2000-P-001385-
00023 on any correspondence.

Attachment
               Proactive Approach Would Improve EPA’s Water Quality Standards Program


               EXECUTIVE SUMMARY

INTRODUCTION             Water is one of our vital resources and must be protected.
                         Water quality standards set goals for water to ensure that it
                         is safe for activities such as swimming and fishing. Water
                         quality standards are the foundation of all aspects of the
                         water program and are necessary to determine the true
                         quality of our nation’s waters. All states have assumed the
                         responsibility for setting water quality standards for waters
                         within their states.

                         Since 1997, we audited eight state water quality programs
                         to develop a picture of how these programs were
                         performing. We identified consistent problems within the
                         state programs with the lack of criteria for pollutants, delays
                         in Environmental Protection Agency (EPA) approval of
                         state water quality standards, and plans to protect high
                         quality waters. This audit was conducted to further assess
                         the problems found in the states and identify what EPA can
                         do to help alleviate the problems.



OBJECTIVES               Our specific objectives were to answer the following
                         questions:

                                #       What are the barriers to developing water
                                        quality criteria for priority pollutants and
                                        other toxic pollutants?

                                #       Why are consultations required by the
                                        Endangered Species Act causing long delays
                                        in EPA approval of state water quality
                                        standards?

                                #       Why have states not developed
                                        antidegradation implementation plans?



                                    i                    Report No. 2000-P-001385-00023
                   Proactive Approach Would Improve EPA’s Water Quality Standards Program


RESULTS IN BRIEF             Water quality criteria identify the amount of a specific
                             pollutant that may be present in the water and still consider
                             the water safe. These criteria are crucial because they help
                             form the basis for state pollution prevention and detection
                             controls. EPA has not developed criteria for all of the
                             priority pollutants identified by the Clean Water Act and has
                             never added pollutants, such as MtBE, to the priority
                             pollutant list. EPA focused its efforts on revising existing
                             criteria and only developed criteria for other pollutants
                             when requested by the states or the public, or when needed
                             to address significant environmental problems. EPA has
                             published only two criteria for new pollutants in the past 10
                             years. EPA officials stated that funding was a barrier to
                             criteria development. As a result, many toxic pollutants are
                             being discharged into the nation’s waters without pollution
                             prevention and detection controls in place.

                             As required by the Clean Water Act, EPA is responsible for
                             approving state and tribal water quality standards. Until a
                             recent court opinion, EPA did not have a strong incentive to
                             finalize consultations or quickly approve proposed
                             standards because these standards became effective when
                             adopted by either the state or tribe. EPA’s approval of
                             these standards had little or no direct environmental impact.
                             EPA encouraged regional coordination with other federal
                             agencies to satisfy the requirements of the Endangered
                             Species Act. However, some of EPA’s regional offices did
                             not complete biological evaluations necessary for these
                             consultations. Incompatibilities between the Clean Water
                             Act and Endangered Species Act also contributed to the
                             long delays experienced by EPA in approving state water
                             quality standards.

                             Federal regulations require states to prepare antidegradation
                             plans to ensure high-quality waters are maintained. Lack of
                             national guidance is the main reason some states and tribes
                             have not developed antidegradation implementation plans.
                             Fifteen of the 53 states and territories did not have plans to
                             implement policies to protect high quality water. EPA had
                             not provided national guidance to states on developing

                                        ii                  Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                            these implementation plans because of uncertainties
                            regarding the components of an implementation plan.
                            Without implementation plans, states and the public risk the
                            potential deterioration of their water quality.



RECOMMENDATIONS             We recommend the Assistant Administrator for Water
                            develop a process to proactively obtain and use data
                            generated by other program offices when developing water
                            quality criteria. We also recommend that the Assistant
                            Administrator train applicable EPA employees in
                            development of biological evaluations, facilitate the sharing
                            of knowledge among EPA regions on developing biological
                            evaluations, and encourage the participation of the U.S. Fish
                            and Wildlife Service and National Marine Fisheries Service
                            (Services) when developing water quality criteria. Finally,
                            we recommend the Assistant Administrator for Water
                            develop guidance on antidegradation implementation.



AGENCY COMMENTS             EPA generally agreed with the recommendations, but
AND                         disagreed with the reporting requirement for state
OIG EVALUATION              antidegradation policies. We changed the language of this
                            recommendation based upon the Agency’s response. EPA
                            agreed that a systematic approach for setting criteria
                            development priorities that is driven by environmental
                            concerns and that uses data generated by other program
                            offices is needed. EPA also agreed that sending regional
                            staff to training courses offered by the Services, ensuring
                            EPA regional staff shared best practices when developing
                            biological evaluations, and encouraging the participation of
                            the Services when developing future water quality criteria
                            would mitigate the long delays EPA has experienced when
                            approving state-adopted water quality standards. Finally,
                            EPA agreed to develop national guidance on
                            antidegradation implementation.



                                      iii                  Report No. 2000-P-001385-00023
                                  Proactive Approach Would Improve EPA’s Water Quality Standards Program



                                     TABLE OF CONTENTS
                                                                                                                          Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        PRIMARY BARRIER TO WATER QUALITY CRITERIA DEVELOPMENT
          IS EPA’S REACTIVE STRATEGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               LACK OF NEW CRITERIA DEVELOPMENT . . . . . . . . . . . . . . . . . . . . . . . . . 6
               FOCUS HAS BEEN ON REVISING CRITERIA . . . . . . . . . . . . . . . . . . . . . . . 7
               EPA’S REACTIVE STRATEGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
               NO SYSTEMATIC PROCESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
               COMPETING PRIORITIES CONTEND FOR LIMITED FUNDS . . . . . . . . . 10
               CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . 12

3        EPA LACKED INCENTIVE TO FINALIZE CONSULTATIONS
          AND APPROVE STATE STANDARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      14
              EPA’S APPROVAL HAD LITTLE ENVIRONMENTAL IMPACT . . . . . . . .                                                 14
              BIOLOGICAL EVALUATIONS NOT COMPLETED . . . . . . . . . . . . . . . . . .                                       15
              CONFLICTS BETWEEN THE ACTS ADDED TO THE DELAYS IN
               APPROVING STANDARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   16
              CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     17
              RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              17
              AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . .                                     18

4        EPA HAD NOT ISSUED NATIONAL GUIDANCE ON ANTIDEGRADATION
          IMPLEMENTATION PLANS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
              LACK OF GUIDANCE CONTRIBUTED TO ABSENCE OF
                IMPLEMENTATION PLANS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


                                                              iv                         Report No. 2000-P-001385-00023
                                Proactive Approach Would Improve EPA’s Water Quality Standards Program


                CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . 20


EXHIBITS

1     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

2     PREVIOUS OIG WATER QUALITY STANDARDS REPORTS . . . . . . . . . . . . . . . . 24

3     POLLUTANTS FOR WHICH EPA IS CURRENTLY DEVELOPING OR REVISING
      WATER QUALITY CRITERIA PROTECTIVE OF AQUATIC LIFE . . . . . . . . . . . . 25

4     NINETEEN PRIORITY POLLUTANTS FOR WHICH EPA DOES NOT
        HAVE CURRENT NATIONAL RECOMMENDED WATER
        QUALITY CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

5     TOP TEN POLLUTANTS IN TERMS OF POUNDS DISCHARGED
        ACCORDING TO EPA’S 1997 TOXICS RELEASE INVENTORY . . . . . . . . . . . . 27

APPENDICES

I     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

II    ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

III   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36




                                                            v                          Report No. 2000-P-001385-00023
          Proactive Approach Would Improve EPA’s Water Quality Standards Program



                     CHAPTER 1
                    INTRODUCTION

PURPOSE             When it approved amendments to the Clean Water Act in
                    1977, Congress recognized that water was one of our vital
                    resources and must be protected. One of the Environmental
                    Protection Agency’s (EPA) 10 strategic goals is to have
                    clean and safe water that sustains human health, supports
                    and maintains aquatic life, and provides for both recreational
                    and economic activities. The Clean Water Act is the
                    primary legislation addressing water quality and calls for the
                    development, assessment, and maintenance of water quality
                    standards. Water quality standards are the foundation of the
                    water quality programs and set goals for each waterbody.

                    Since 1997, the Office of Inspector General (OIG) has
                    audited the water quality standards program in eight states
                    to assess the performance of state programs and to
                    determine if there were national issues that limited the
                    effectiveness of the state water quality standards programs.
                    We identified three national issues in these audits: (1) lack
                    of water quality criteria for some pollutants found in state
                    waters, (2) delays in EPA approval of state water quality
                    standards, and (3) lack of plans needed to protect high
                    quality water.

                    We further developed these issues in this audit to provide
                    useful information to promote economy, efficiency, and
                    effectiveness of the water quality standards program. Our
                    specific objectives were to answer the following questions:

                           #       What are the barriers to developing water
                                   quality criteria for priority pollutants and
                                   other toxic pollutants?

                           #       Why are consultations required by the
                                   Endangered Species Act causing long delays



                               1                   Report No. 2000-P-001385-00023
             Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                      in EPA approval of state water quality
                                      standards?

                              #       Why have states not developed
                                      antidegradation implementation plans?



BACKGROUND             The objective of the Clean Water Act is to restore and
                       maintain the quality of the nation’s surface waters. The
                       Clean Water Act requires a consistent national approach for
                       maintaining, improving, and protecting water quality while
                       allowing states flexibility to implement their own programs.
                       The Clean Water Act requires states and authorized tribes
                       to adopt water quality standards for all surface waters
                       within their boundaries. Water quality standards serve as
                       the regulatory basis for pollutant discharge limits in the state
                       discharge permitting programs, and provide the basis for the
                       total maximum daily load allocations and nonpoint source
                       controls.

                       Water quality standards define the water quality goals for a
                       waterbody, such as fishing and swimming. The standard
                       includes three components: the designated use or uses to be
                       made of the water, pollutant criteria necessary to protect the
                       uses, and a policy to prevent or limit degradation of water
                       quality.

                       The Clean Water Act defines broad water uses and sets a
                       goal that all waters will meet these uses. The Clean Water
                       Act provides that wherever attainable, waters achieve a
                       level of quality that provides for the protection of fish,
                       shellfish, and wildlife, and recreation in and on the water -
                       commonly referred to as the “fishable/swimmable” goals.

                       Water quality criteria identify the amount of a specific
                       pollutant that may be present in the water column and still
                       protect the use. EPA develops and publishes two types of
                       water quality criteria: (1) criteria protective of fish and
                       other types of aquatic life, and (2) criteria protective of

                                  2                    Report No. 2000-P-001385-00023
Proactive Approach Would Improve EPA’s Water Quality Standards Program


          human health. For example, EPA criteria could identify the
          amount of a pesticide that can be present in the water and
          still protect fish (the “fishable” goal), or identify the amount
          of a pesticide that can be present in the water and protect
          humans when using the water for recreation - such as
          swimming (the “swimmable” goal). In recent years, EPA
          has focused on the development of criteria for nutrients in
          the water column, as well as methodology revisions to
          reflect new science for pollutants found in the water
          column. EPA has concentrated on the development of
          sediment quality guidelines and biocriteria as well.

          The Clean Water Act, as amended in 1977, listed 65
          chemical compounds and families of compounds as toxic
          pollutants. EPA translated the 65 compounds into 126
          more specific pollutants, developing the “priority pollutant”
          list - the most persistent, prevalent, and toxic of pollutants.
          These pollutants can harm human health and the
          environment even when present in minute amounts in the
          water column - at the parts-per-billion level. The Clean
          Water Act required EPA to develop water quality criteria
          for these pollutants. States and authorized tribes are then
          required to include these criteria in their water quality
          standards wherever the pollutant is present and could
          reasonably be expected to interfere with designated uses.

          The Clean Water Act provides general guidelines that EPA
          can use to add or delete pollutants from the priority
          pollutant list. When EPA publishes a criteria for a pollutant
          that is not on the priority pollutant list, the pollutant is
          known as a “nonpriority pollutant.” States and authorized
          tribes are required to include criteria for these pollutants in
          their water quality standards as needed to protect
          designated uses.

          Water quality criteria adopted by the states and authorized
          tribes are crucial because they help form the basis for
          pollution prevention and detection controls. Water quality
          criteria determine how much pollution can be present in
          surface waters without jeopardizing attainment of

                     3                    Report No. 2000-P-001385-00023
Proactive Approach Would Improve EPA’s Water Quality Standards Program


          designated uses, and help determine how much pollution
          industry can directly discharge into those same waters.
          Without water quality criteria for pollutants, there are no
          numeric limits on how much pollution can be found in state
          and tribal waters. These limits are used to help assess
          whether the water is safe for its intended uses. Because
          many states and tribes have limited ability to develop water
          quality criteria beyond those published by the federal
          government, it is essential that EPA lead the way in the
          development of comprehensive water quality criteria.

          Antidegradation policies help ensure existing uses are
          maintained and protected, and help ensure high quality
          waters are protected unless a lowering of water quality is
          necessary to accommodate important economic or social
          development. Antidegradation policies also identify and
          protect waterbodies of exceptional high quality such as
          those found in national and state parks.

          States and authorized tribes review and revise their water
          quality standards once every 3 years and obtain EPA
          approval for new and revised standards. EPA reviews
          standards for inconsistencies in designated uses, use of
          scientifically defensible criteria, and adherence to regulatory
          and statutory requirements. EPA then develops a biological
          evaluation to determine whether the standards protect
          endangered and threatened species. EPA consults with the
          U.S. Fish and Wildlife Service and National Marine
          Fisheries Service (Services) to ensure the state and tribal
          water quality standards do not harm endangered species.
          The Services use the biological evaluations to form their
          opinion on the protectiveness of the state and tribal water
          quality standards. In January 1999, EPA and the Services
          published a draft Memorandum of Agreement designed to
          establish procedures for enhancing coordination regarding
          the protection of endangered and threatened species.




                     4                    Report No. 2000-P-001385-00023
              Proactive Approach Would Improve EPA’s Water Quality Standards Program


SCOPE AND               We performed our audit in accordance with the Government
METHODOLOGY             Auditing Standards (1994 revision) issued by the
                        Comptroller General of the United States as they apply to
                        program audits. Our audit included reviews of the program
                        records and other auditing procedures we considered
                        necessary. We conducted our fieldwork from August 1999
                        - April 2000. We performed our fieldwork at EPA
                        headquarters in Washington, D.C.

                        See Exhibit 1 for methodology details.



PRIOR AUDIT             Since 1997, OIG has audited the water quality standards
COVERAGE                program in eight states (see Exhibit 2) to assess the
                        performance of state programs and to determine if there
                        were national issues that limited the effectiveness of the
                        state water quality standards programs. We identified three
                        national issues in the state audits: (1) lack of water quality
                        criteria for pollutants found in state waters, (2) delays in
                        EPA approval of water quality standards, and (3) lack of
                        plans needed to protect high quality water.

                        In June 1994, the U.S. General Accounting Office (GAO)
                        issued a report Water Pollution: EPA Needs to Set
                        Priorities for Water Quality Criteria Issues. In this report,
                        GAO noted that EPA needed to set up time frames for
                        developing water quality criteria for priority toxic
                        pollutants.




                                   5                   Report No. 2000-P-001385-00023
                                           EPA’s Water Quality Standards Program

                    CHAPTER 2
      PRIMARY BARRIER TO WATER QUALITY CRITERIA
        DEVELOPMENT IS EPA’S REACTIVE STRATEGY

                    Twenty years after Congress authorized EPA to issue
                    criteria for 126 of the most toxic priority pollutants known
                    at that time, EPA has not developed criteria for 19 of the
                    pollutants. Further, EPA has not added any pollutants to
                    this list and has published few criteria for new pollutants
                    introduced into the environment in the past several years.
                    EPA has focused its efforts on revising criteria for existing
                    pollutants. EPA adopted a reactive strategy for criteria
                    development for pollutants found in the water column rather
                    than developing a systematic process using information
                    from other environmental programs to identify pollutants
                    needing criteria. EPA officials stated that funding was a
                    barrier to criteria development. As a result, many toxic
                    pollutants are being discharged into the nation’s waters
                    without pollution prevention and detection controls in place.




LACK OF NEW         EPA has not published water quality criteria - as required by
CRITERIA            the Clean Water Act - for 19 of the 126 priority pollutants
DEVELOPMENT         (see Exhibit 4). Most of the criteria for priority pollutants
                    were published in 1980. Since 1984, EPA published only
                    one criterion for a priority pollutant which previously did
                    not have criteria. Overall, EPA published only two criteria
                    for new pollutants in the past 10 years.

                    EPA has never added pollutants to the 1977 priority
                    pollutant list. The Clean Water Act allows EPA to revise
                    the priority pollutant list by adding to or removing any
                    pollutant from the list. The priority pollutant list is
                    important because when EPA publishes a criterion for a
                    priority pollutant, states are then required to adopt criteria
                    for that pollutant if the pollutant is found in the state and
                    can be reasonably expected to interfere with the designated
                    uses of the state waters.



                               6                    Report No. 2000-P-001385-00023
                    Proactive Approach Would Improve EPA’s Water Quality Standards Program


                              EPA removed three pollutants [dichlorodifluoromethane,
                              trichlorofluoromethane, and bis-(chloromethyl) ether] from
                              the priority pollutant list in 1981. The only attempt EPA
                              made to add a pollutant to the list was in 1980 for ammonia.
                              However, the proposal for ammonia was withdrawn after an
                              overwhelming majority of public comments received were
                              against it. EPA then listed ammonia as a nonpriority
                              pollutant and developed corresponding criteria. As a result,
                              EPA can encourage, but not require states to adopt criteria
                              for ammonia where appropriate.

                              EPA does not have a process for determining if pollutants
                              should be added to the priority pollutant list. EPA is
                              reluctant to add pollutants to the list because it feels that the
                              goals of the water quality program can be accomplished
                              with other aspects of the Clean Water Act and because of
                              the ramifications of criteria for priority pollutants.



FOCUS HAS BEEN ON             EPA has focused its efforts on revising existing criteria for
REVISING CRITERIA             priority pollutants. In November 1980, EPA published 105
                              priority pollutant human health criteria. In 1991, EPA
                              published the National Toxics Rule revising 83 of the
                              existing human health criteria. EPA next revised human
                              health criteria for 22 pollutants in 1997 in drafting the
                              California Toxics Rule.

                              EPA also published priority pollutant criteria for 64
                              pollutants in 1980 for the protection of aquatic life.
                              Revisions to several aquatic life criteria appeared in 1985
                              when EPA revised its methodology for deriving aquatic life
                              criteria. Many criteria were revised again in 1995 when
                              EPA modified the way it expressed aquatic life criteria as a
                              result of a settlement agreement stemming from lawsuits
                              that challenged EPA’s criteria for certain metals.

                              EPA is also developing or revising aquatic life criteria for
                              eleven priority and nonpriority pollutants (see Exhibit 3).
                              According to Agency officials, several of these criteria are

                                         7                     Report No. 2000-P-001385-00023
                 Proactive Approach Would Improve EPA’s Water Quality Standards Program


                           near completion. As a result of its methodology revisions to
                           reflect new science for pollutants found in the water
                           column, EPA identified the need to develop and revise
                           water quality criteria for several priority and nonpriority
                           pollutants that pose a potential risk to human health. EPA
                           may begin developing criteria for these pollutants once the
                           methodology revision is completed. However, according to
                           Agency officials, this is contingent upon future funding.



EPA’S REACTIVE             EPA adopted a reactive strategy for criteria development
STRATEGY                   and only developed criteria when requested by the states or
                           the public, or when needed to address significant
                           environmental problems. EPA then only developed criteria
                           if sufficient and comprehensive data was available. EPA did
                           not have a systematic process to obtain this data, where it
                           was not available.

                           EPA had not developed criteria for the 19 priority pollutants
                           as it had not received specific requests from its regional
                           offices, the states, or the public to develop criteria for these
                           pollutants. For 5 of these pollutants (beryllium, 2-
                           chloroethylvinyl ether, methyl chloride, 1,1,1-
                           trichloroethane, and phenanthrene), Office of Water officials
                           stated that in 1980 it had published water quality criteria but
                           subsequently withdrew the criteria because of questions
                           concerning the soundness of the science that supported the
                           criteria. EPA has not resolved the concerns nor reissued the
                           criteria because the user community and potential
                           stakeholders have not requested criteria for these pollutants.

                           EPA’s plans to develop criteria for Methyl tertiary-butyl
                           ether (MtBE) illustrate the reactive strategy EPA has
                           embraced when determining which pollutants warrant
                           criteria development. EPA did not have plans to develop
                           criteria for this chemical until it was approached by the
                           American Petroleum Institute in 1997. After representatives
                           from the petroleum industry approached EPA and offered to


                                      8                    Report No. 2000-P-001385-00023
                Proactive Approach Would Improve EPA’s Water Quality Standards Program


                          pay for the effort, EPA agreed to the proposal and is
                          working on developing criteria.

                          MtBE, a nonpriority pollutant, is a chemical that has been
                          used in gasoline since the late 1970s. In the Clean Air Act
                          of 1990, Congress mandated the use of reformulated
                          gasoline in areas of the country with the worst ozone or
                          smog problems. MtBE is one of the additives used to make
                          reformulated gasoline and is used in about 84 percent of
                          reformulated gasoline supplies. MtBE is considered a
                          potential human carcinogen and concerns have been raised
                          about it contaminating drinking water. According to EPA’s
                          Toxics Release Inventory (TRI), more than 870,000 pounds
                          of MtBE have been directly discharged into surface waters
                          in the United States as far back as 1987. In 1996 and 1997
                          alone (the latest years for which data was available), more
                          than 280,000 pounds of MtBE were discharged into surface
                          waters. Had EPA used the TRI as a resource to help
                          identify pollutants warranting criteria development, perhaps
                          the need to develop water quality criteria for MtBE could
                          have been identified long before the American Petroleum
                          Institute approached EPA and offered to pay for the criteria
                          development effort.



NO SYSTEMATIC             EPA does not have a process to systematically use
PROCESS                   information from other environmental programs to identify
                          pollutants of concern in the nation’s waters. For example,
                          EPA’s TRI shows annual amounts of pollutants released
                          from select industries. This information may be useful to
                          identify new pollutants that warrant criteria development.
                          The results of our review of EPA’s 1997 TRI illustrate the
                          importance of water quality criteria for pollutants. For
                          example:

                                 #       EPA does not have water quality criteria for
                                         203 of the 265 pollutants discharged into
                                         surface waters, of which 36 are either


                                     9                  Report No. 2000-P-001385-00023
                 Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                    known, probable, possible or may reasonably
                                                                    be anticipated to be carcinogens.

                                                          #         EPA’s current list of priority pollutants
                                                                    represented less than one percent of total
                                                                    pounds discharged, and nine of these had no
                                                                    water quality criteria.

                           The TRI data also showed that a small number of pollutants
                           are responsible for a large percentage of pounds discharged.
                           The top 10 pollutants in terms of pounds discharged
                           accounted for more than 98 percent of all discharges. EPA
                           has published water quality criteria for five of these
                           pollutants (see Exhibit 5).



COMPETING                  EPA officials stated that funding was a barrier to criteria
PRIORITIES CONTEND         development. As shown in the following chart, funds
FOR LIMITED FUNDS          available for the development of water quality criteria
                           ranged from $1.39 million in 1990 to $5.13 million in 2000.




                                                                        Budget For Criteria Development
                                                                                     Fiscal 1990-2000
                                                    6.0


                                                    5.0
                               Dollars (Millions)




                                                    4.0


                                                    3.0


                                                    2.0


                                                    1.0


                                                    0.0
                                                              90   91      92   93      94    95      96   97   98   99   00

                                                                                             Fiscal




                                                              10                             Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                            Criteria development funding is used to develop priority and
                            nonpriority pollutant criteria as well as other forms of
                            criteria and related activities. In recent years, EPA has also
                            focused on the development of criteria for nutrients,
                            sediment quality guidelines, biocriteria, and revisions to its
                            methodology for developing criteria protective of human
                            health. Nutrients were cited in the 1996 report on the
                            quality of the nation’s waters as one of the leading causes of
                            water quality problems. Development of toxic criteria and
                            other types of criteria are important to achieve the goals of
                            the Clean Water Act.



CONCLUSION                  Water quality standards are essential to the foundation of
                            water quality protection efforts. Expanding criteria
                            coverage for pollutants found in surface waters, as well as
                            updating and maintaining criteria to reflect new scientific
                            information, is a fundamental component of this foundation.
                            Without water quality criteria, there are no numeric limits
                            on how much pollution can be found in state waters. EPA
                            should develop a systemic process to examine other sources
                            of data to determine which pollutants warrant criteria
                            development. Because many states have limited ability to
                            adopt water quality standards beyond those published by the
                            federal government, it is essential that EPA lead the way in
                            the development of comprehensive water quality criteria.



RECOMMENDATIONS             We recommend the Assistant Administrator for Water:

                            2-1.   Develop a process to proactively obtain and use data
                                   generated by other program offices to help
                                   determine those toxic pollutants that warrant water
                                   quality criteria development and revise priorities or
                                   seek additional funding to develop such criteria.




                                      11                   Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                            2-2.   Develop a process to determine which pollutants
                                   should be included on the priority pollutant list or
                                   develop an equivalent approach.



AGENCY COMMENTS             EPA provided comments to clarify portions of the report,
AND                         and we have incorporated these comments and modified the
OIG EVALUATION              report as appropriate. The comments EPA provided can be
                            found in Appendix I.

                            EPA generally agreed with recommendation 2-1 that a
                            systematic approach is needed for identifying pollutants and
                            prioritizing criteria development. EPA stated in their
                            response that many elements of a systematic approach for
                            criteria development are in place. EPA specifically
                            mentioned a first meeting it held in August 2000 of a
                            National Work Group on Water Quality Standards, and
                            coordination with the Office of Prevention, Pesticides, and
                            Toxic Substances (OPPTS) for information on the toxicity
                            and bioaccumulation potential of chemicals that OPPTS is
                            registering for commercial use.

                            EPA also provided an example of how it started an initiative
                            to develop nutrient criteria because EPA’s recent
                            assessments of national water quality cited nutrients as one
                            of the leading causes of water quality impairment in our
                            Nation’s rivers, lakes and estuaries.

                            We believe such steps are important in developing a risk-
                            based approach for pollutant identification warranting
                            criteria development. We also believe that had EPA held its
                            first meeting of a National Work Group on Water Quality
                            Standards in the past and coordinated with other programs
                            and offices within EPA, in addition to OPPTS, it may have
                            resulted in EPA identifying the need to develop water
                            quality criteria for nutrients long before the large hypoxic
                            zone in the Gulf of Mexico appeared and before the
                            Pfiesteria-induced fish kills in the coastal waters of the East
                            Coast were reported. Such a risk-based approach may have

                                      12                    Report No. 2000-P-001385-00023
Proactive Approach Would Improve EPA’s Water Quality Standards Program


          also identified the need for water quality criteria for MtBE
          before it became an issue and before the American
          Petroleum Institute offered to pay for the criteria
          development effort themselves.

          EPA stated that in several instances, it has adjusted or will
          adjust priorities for criteria development to reflect
          information on the environmental occurrence of pollutants
          including information from other offices. We agree that
          EPA’s priorities should remain flexible in order to respond
          to emerging environmental concerns. We also believe that
          EPA needs to develop a structured process to systematically
          identify new and existing pollutants that pose a threat to
          human health and the environment before they become a
          problem. If EPA determines that data is insufficient to
          evaluate risk, the process should include procedures to
          acquire the data. Furthermore, a proactive process should
          anticipate criteria needed by the states and public, rather
          than waiting for specific requests from the EPA regions,
          states, and the public.

          EPA’s willingness to exercise its authority under the Clean
          Water Act meets the intent of our recommendation 2-2.
          EPA stated that there may be very limited environmental
          benefits from adding pollutants to the priority pollutant list,
          but also stated that it has the authority under other aspects
          of the Clean Water Act to require states and authorized
          tribes to adopt numeric criteria for any pollutant, regardless
          of whether the pollutant is on the priority pollutant list.
          EPA officials stated that they will exercise their authority as
          needed in the future to address state-adopted criteria for
          nonpriority pollutants.




                    13                    Report No. 2000-P-001385-00023
                 Proactive Approach Would Improve EPA’s Water Quality Standards Program



                            CHAPTER 3
           EPA LACKED INCENTIVE TO FINALIZE
      CONSULTATIONS AND APPROVE STATE STANDARDS

                           As of June 2000, there were 45 state water quality
                           standards submissions, dating as far back as 1994, awaiting
                           EPA action. The Clean Water Act provides EPA 60 days to
                           approve and 90 days to disapprove state water quality
                           standards. Until a recent court opinion, EPA did not have a
                           strong incentive to finalize consultations or quickly approve
                           outstanding state and tribal water quality standards because
                           these standards became effective when adopted by the state.
                           Therefore, EPA approval of state water quality standards
                           had little or no direct environmental impact. EPA
                           encouraged regional coordination with other federal
                           agencies to satisfy the requirements of the Endangered
                           Species Act. However, several regions did not complete
                           biological evaluations necessary for these consultations.
                           Incompatibilities between the Clean Water Act and
                           Endangered Species Act also contributed to the long delays
                           experienced by EPA in approving state water quality
                           standards.



EPA’S APPROVAL HAD         Until a court opinion in 1997 [Alaska Clean Water Alliance
LITTLE                     v. Clark, No. C96-1762R (W.D. Wash.)], EPA approval of
ENVIRONMENTAL              state water quality standards had little or no direct
IMPACT                     environmental impact because state water quality standards
                           became effective when adopted by the state. Therefore,
                           EPA’s approval of these standards was simply a regulatory
                           requirement and oversight function. Because of this, EPA
                           did not have a strong incentive to finalize consultations or
                           quickly approve outstanding state water quality standards.
                           The court ruled that state water quality standards would not
                           become effective until EPA approved them. As a result,
                           EPA revised its regulations and EPA’s approval now has a
                           real environmental impact on water quality and so the
                           importance of timely approvals is critical.

                                     14                   Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


BIOLOGICAL                  As of November 1999, there were 70 state water quality
EVALUATIONS NOT             standards submissions, dating as far back as 1994, awaiting
COMPLETED                   EPA approval. EPA took action on 25 of these state water
                            quality standards between November 1999 and June 2000.
                            Forty-nine of the 70 were pending due to Endangered
                            Species Act consultations. Of these 49, biological
                            evaluations had not been completed for 31. Some EPA
                            regional offices contributed to delays by not finalizing
                            biological evaluations needed for consultations. EPA’s
                            regional offices needed to prepare biological evaluations
                            and consult with the U.S. Fish and Wildlife Service and
                            National Marine Fisheries Service (Services) to ensure that
                            state and tribal water quality standards were protective of
                            listed species. As can be seen in the following chart,
                            Regions 8, 9, and 10 accounted for most of the outstanding
                            regional actions due to ESA consultations.


                                                                           EPA Regional Actions Pending
                                                                                   Due to ESA Consultations
                              No. of State-Submitted Standards




                                                                 20


                                                                 15


                                                                 10


                                                                  5


                                                                  0
                                                                      1        2      3   4    5     6   7    8   9    10
                                                                                               Regions




                            Regions 8, 9, and 10 also accounted for 28 of the 31
                            outstanding biological evaluations. Region 8 had not
                            developed any biological evaluations since 1994 because of
                            uncertainties regarding how to conduct a biological
                            evaluation. Regions 9 and 10 attributed the lack of
                            completed biological evaluations to limited staff resources.
                            Region 8 is working with the U.S. Fish and Wildlife Service
                            to develop regional guidance for developing biological

                                                                          15                       Report No. 2000-P-001385-00023
                Proactive Approach Would Improve EPA’s Water Quality Standards Program


                          evaluations. Although Office of Water had not provided
                          guidance on how to prepare these evaluations, other EPA
                          regional offices, such as Region 4, have successfully
                          developed biological evaluations and completed
                          consultations with the Services. Further, the U.S. Fish and
                          Wildlife Service provides training courses for federal
                          agencies to use when developing these evaluations. In the
                          past 3 years, only six EPA employees have attended this
                          course - five from EPA headquarters in Washington, D.C.
                          It is EPA’s regional staff, however, and not EPA
                          headquarters officials, who prepare these biological
                          evaluations.



CONFLICTS BETWEEN         Incompatibilities between the Clean Water Act and
THE ACTS ADDED TO         Endangered Species Act contributed to EPA’s delays in
THE DELAYS IN             approving state water quality standards. First, the Clean
APPROVING                 Water Act requires EPA to develop water quality criteria
STANDARDS                 protective of aquatic life. This language is very general in
                          nature. The Endangered Species Act requires the Services
                          to protect specific listed species. The Services are
                          concerned that when developing criteria protective of
                          aquatic life, EPA’s standard test species may not be
                          indicative of specific listed species.

                          To alleviate these concerns, EPA and the Department of
                          Interior conducted joint studies to determine the sensitivity
                          of endangered and threatened species to a few toxic
                          pollutants. Results indicated that, generally, endangered
                          fish are no more sensitive to pollutants than other fish;
                          however, some mussels may be more sensitive than
                          previously-tested species. As a result, EPA and the
                          Services are prioritizing and expanding joint research and
                          data gathering to ensure criteria protect endangered and
                          threatened species.

                          Second, the timing requirements between the Clean Water
                          Act and U.S. Fish and Wildlife Service regulations are
                          incompatible. The Clean Water Act requires EPA to

                                    16                   Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                            approve state water quality standards in 60 days. U.S. Fish
                            and Wildlife Service regulations provide the Services 135
                            days to form their opinion regarding the protectiveness of
                            these same standards. Because EPA is reluctant to give
                            final approval to these state water quality standards before
                            the Services render their opinion, EPA may be out of
                            compliance with the time limit specified in the Clean Water
                            Act for approval. The draft Memorandum of Agreement
                            published in 1999 between EPA and the Services addressed
                            this issue and encouraged early involvement with the states
                            when reviewing the water quality standards to avoid
                            violating the time frame established in the Clean Water Act.



CONCLUSION                  Lengthy delays caused by EPA in approving state water
                            quality standards may have an unfavorable effect on the
                            environment, damage the Agency’s credibility, and expose
                            EPA to lawsuits. EPA’s final approval of state water
                            quality standards is dependent upon the Service’s
                            concurrence. It is crucial that EPA and the Services find a
                            way to ensure timely approval. EPA is reorganizing its
                            headquarters staff to help address the backlog of
                            outstanding state water quality standards and is conducting
                            an internal assessment of the standards process to improve
                            its effectiveness and efficiency.



RECOMMENDATIONS             We recommend the Assistant Administrator for Water:

                            3-1.   Train applicable EPA employees in development of
                                   biological evaluations by sending at least one
                                   employee from each EPA regional office to the U.S.
                                   Fish and Wildlife course which offers guidance on
                                   how to develop biological evaluations.

                            3-2.   Facilitate the sharing of knowledge among EPA
                                   regional employees by ensuring they share with their
                                   counterparts information on how to develop

                                      17                   Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                   biological evaluations and best practices in
                                   consulting with the Services.

                            3-3.   Determine the feasibility of rotational opportunities
                                   between EPA and Services staff to better understand
                                   complexities when dealing with threatened and
                                   endangered species issues, assist in the development
                                   of biological evaluations, and improve the
                                   relationship between the agencies.

                            3-4.   Use the results of EPA and Department of Interior
                                   toxicity tests for determining the protectiveness of
                                   EPA criteria on listed species.

                            3-5.   Work together with the Services when developing
                                   future draft water quality criteria.

                            3-6.   As set forth in the joint MOA between EPA and the
                                   Services, encourage collaborative processes with
                                   EPA regions, states and tribes, and the Services in
                                   conducting triennial reviews and standards revisions.



AGENCY COMMENTS             EPA provided comments to clarify portions of the report,
AND                         and we have incorporated these comments and modified the
OIG EVALUATION              report as appropriate. The comments EPA provided can be
                            found in Appendix I.

                            EPA agreed with the recommendations and recognized that
                            as a result of the lawsuit [Alaska Clean Water Alliance v.
                            Clark, No. C96-1762R (W.D. Wash)], the importance of
                            timely approval of state-adopted water quality standards is
                            critical. The actions that EPA will take will assist in
                            ensuring timely approval of future state water quality
                            standards submissions and meet the intent of our
                            recommendations.




                                      18                   Report No. 2000-P-001385-00023
                   Proactive Approach Would Improve EPA’s Water Quality Standards Program



                              CHAPTER 4
        EPA HAD NOT ISSUED NATIONAL GUIDANCE ON
        ANTIDEGRADATION IMPLEMENTATION PLANS

                             Twenty-five years after EPA first issued regulations
                             requiring that states develop antidegradation policies and
                             implementation plans, Office of Water has not issued
                             guidance identifying what should be included in these plans.
                             Antidegradation policies and plans are designed to protect
                             high quality waters by preventing their deterioration. Office
                             of Water had not issued national guidance because of other
                             priorities. As a result, pollution prevention and detection
                             controls for higher quality water are not in place across the
                             nation.



LACK OF GUIDANCE             Office of Water had not developed national guidance for
CONTRIBUTED TO               states on developing antidegradation implementation plans
ABSENCE OF                   due to the lower priority of the antidegradation
IMPLEMENTATION               requirements. As a result, Office of Water is uncertain of
PLANS                        the components of an implementation plan. Thirty-five
                             states have developed antidegradation plans, of which EPA
                             regions have approved 30. Without national guidance these
                             state plans lack consistency. Many regions and states felt
                             national guidance was crucial because they were uncertain
                             as to the information needed in an implementation plan.

                             In 1986, EPA drafted national guidance for high quality
                             water to ensure consistent application of each state’s
                             antidegradation policy. The guidance was never finalized
                             because of EPA’s uncertainties regarding the components of
                             an implementation plan. However, five EPA regional
                             offices separately developed and provided their states
                             guidance for antidegradation implementation and generally
                             states in these regions had implementation plans.

                             National guidance is important because it would provide a
                             baseline for regions, states, and authorized tribes to follow

                                       19                    Report No. 2000-P-001385-00023
                  Proactive Approach Would Improve EPA’s Water Quality Standards Program


                            in developing implementation plans. In addition, national
                            guidance would help eliminate confusion and inconsistencies
                            that may result from antidegradation implementation among
                            states.



CONCLUSION                  Without implementation plans, states may be giving away
                            the quality of their waters without allowing the public to
                            participate in the decision making process. It is imperative
                            that states not concentrate solely on upgrading poor quality
                            waters while allowing high quality waters to deteriorate due
                            to inattention. EPA agreed that having national
                            antidegradation implementation guidance is necessary to
                            eliminate confusion and inconsistencies between regions and
                            states. Because many states have not developed
                            antidegradation implementation plans, it is essential that
                            EPA develop the national guidance needed to ensure the
                            deterioration of existing levels of good water quality is
                            prevented.



RECOMMENDATIONS             We recommend the Assistant Administrator for Water:

                            4-1.   Develop guidance on antidegradation
                                   implementation by using regional guidance as an aid
                                   when developing the guidance.

                            4-2.   Recommend states report on how their waters meet
                                   requirements in the antidegradation policy.



AGENCY COMMENTS             EPA provided comments to clarify portions of the report,
AND                         and we have incorporated these comments and modified the
OIG EVALUATION              report as appropriate. The comments EPA provided can be
                            found in Appendix I.



                                      20                  Report No. 2000-P-001385-00023
Proactive Approach Would Improve EPA’s Water Quality Standards Program


          We combined two recommendations from the draft report
          into one recommendation for the final report. EPA agreed
          with recommendation 4-1, but disagreed with
          recommendation 4-2 because neither the Clean Water Act
          nor EPA’s existing regulations contain a reporting
          requirement. We therefore changed the language of the
          recommendation. We believe that it is important not only
          that states adopt an antidegradation policy and
          implementation plan, but report to EPA and the public on
          progress toward maintaining high quality waters. Simply
          adopting such antidegradation plans gives no assurance to
          the public that the spirit of the requirements is being
          achieved. Agency staff agreed that as a matter of good
          government, permittees should report how their discharges
          to receiving waters and other such activities meet the
          requirements in their antidegradation policy and will
          encourage such reporting.




                    21                  Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                                      EXHIBIT 1

                            SCOPE AND METHODOLOGY


We reviewed EPA program records to determine the extent of EPA’s criteria coverage for
pollutants. We compared the priority pollutants identified by the Clean Water Act to EPA’s
National Recommended Water Quality Criteria in order to ascertain EPA’s criteria coverage for
these pollutants. We reviewed EPA’s 1980 water quality criteria for priority pollutants and
subsequent revisions. We asked EPA to provide specific reasons why it does not have criteria for
several priority pollutants. We also interviewed staff from EPA’s Health and Ecological Criteria
Division and flowcharted EPA’s process for deriving water quality criteria. We reviewed the
original priority pollutant list and subsequent deletions from the list in 1981. We also reviewed
EPA’s attempt to add a pollutant to the list in 1980 by examining the Federal Register notices for
these actions.

We evaluated EPA’s 1997 Toxics Release Inventory (TRI) to determine the extent of EPA’s
criteria coverage for pollutants discharged into surface waters of the United States. TRI is a
national database that identifies facilities, chemicals manufactured and used, and the annual
amounts of these chemicals released into surface waters, air, landfills, etc. We considered TRI’s
limitations when using the data. The database does not include all sources of releases and does
not distinguish pollutants of higher toxicity from those of lower toxicity. We considered it as one
source EPA could use for pollutant identification.

We also reviewed EPA’s 1993 Toxic Weighting Factors for Pesticide Active Ingredients and
Priority Pollutants to determine the relative toxicity for some of the pollutants reported in the
TRI. Toxic weighting factors are values for pollutants that change to reflect differences based on
water quality criteria and toxicity values. For example, the potential effect of a pound of zinc may
be significantly different from that of a pound of lead.

We reviewed Office of Science and Technology’s criteria development budget for the past 11
years and accomplishment reports of EPA’s Health and Ecological Criteria Division for fiscal
1995-1999.

We interviewed staff from EPA’s Water Quality Standards Branch and EPA staff in regional
offices, and flowcharted the consultation process to determine why consultations required by the
Endangered Species Act are causing long delays in EPA’s approval of state water quality
standards. We interviewed staff from the U.S. Fish and Wildlife Service to understand their
perspective on why consultations with EPA were protracted.


                                                22                   Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


We reviewed the Clean Water Act, federal regulations, and lawsuits to understand when state-
adopted water quality standards became effective and how this would change due to recent
litigation. We reviewed both the Clean Water Act and Endangered Species Act and analyzed the
extent of incompatibilities between the Acts and determined how these incompatibilities can delay
EPA approval of state-adopted water quality standards.

We interviewed staff from EPA’s Water Quality Standards Branch and EPA staff in regional
offices to determine why states were reluctant to develop implementation plans. We interviewed
EPA staff in the regional offices to determine if they issued guidance to their states on how to
develop implementation plans. We obtained and reviewed the regional guidance documents to
identify whether EPA could use the regional guidance as an aid for developing national
antidegradation guidance.

We also interviewed the Water Quality Standards Branch staff to identify why antidegradation has
not been a program priority. We obtained and evaluated reviews of the antidegradation program
conducted by both EPA and contractors in the past to identify if similar issues still remained.




                                               23                   Report No. 2000-P-001385-00023
                       Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                               EXHIBIT 2

     PREVIOUS OIG WATER QUALITY STANDARDS REPORTS


1.   Missouri’s Water Quality Standards and Monitoring, E1HWF7-07-0023-8100080,
     March 31, 1998

2.   Colorado Water Quality Standards, Monitoring, and Reporting Program, E1HWF8-07-
     0004-9100093, March 10, 1999

3.   Oregon’s Water Quality Program, E1HWF8-10-0024-9100119, March 31, 1999

4.   Region III Water Quality Standards, Monitoring, and Reporting, E1HWF7-03-0160,
     March 31, 1999

5.   Ohio’s Water Quality Program, 99P00210, June 30, 1999

6.   New Jersey’s Water Quality Monitoring Program, 1999-1-00225, July 21, 1999

7.   Arkansas Water Quality Standards, Monitoring, and Reporting Program, 1999-R6-
     0001321-100245, August 19, 1999

8.   Mississippi’s Water Quality Standards, Monitoring and Reporting, 1999-P00219,
     September 29, 1999




                                           24                  Report No. 2000-P-001385-00023
                         Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                                   Exhibit 3
  POLLUTANTS FOR WHICH EPA IS CURRENTLY DEVELOPING
   OR REVISING WATER QUALITY CRITERIA PROTECTIVE OF
AQUATIC LIFE


1.    Atrazine
2.    Diazinon
3.    Nonylphenol
4.    Methyl tertiary-butyl ether
5.    Manganese
6.    Tributyl tin
7.    Selenium
8.    Pentachlorophenol
9.    Cadmium
10.   Silver
11.   Copper




                                             25                  Report No. 2000-P-001385-00023
                        Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                                  Exhibit 4
       NINETEEN PRIORITY POLLUTANTS FOR WHICH EPA
      DOES NOT HAVE CURRENT NATIONAL RECOMMENDED
                 WATER QUALITY CRITERIA


1.    Beryllium
2.    Chloroethane
3.    2-Chloroethylvinyl Ether
4.    1,1-Dichloroethane
5.    Methyl Chloride
6.    1,1,1-Trichloroethane
7.    2-Nitrophenol
8.    4-Nitrophenol
9.    3-Methyl-4-Chlorophenol
10.   Acenaphthylene
11.   BenzoghiPerylene
12.   Bis2-ChloroethoxyMethane
13.   4-Bromophenyl Phenyl Ether
14.   4-Chlorophenyl Phenyl Ether
15.   2,6-Dinitrotoluene
16.   Di-n-Octyl Phthalate
17.   Naphthalene
18.   Phenanthrene
19.   delta-BHC




                                            26                  Report No. 2000-P-001385-00023
                          Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                                    Exhibit 5
  TOP TEN POLLUTANTS IN TERMS OF POUNDS DISCHARGED
ACCORDING TO EPA’S 1997 TOXICS RELEASE INVENTORY

       Pollutant                                   EPA Criteria

1.     Nitrate compounds                           Yes
2.     Phosphoric acid*                            No
3.     Ammonia                                     Yes
4.     Methanol                                    No
5.     Manganese and Manganese compounds           Yes
6.     Zinc (fume or dust) and zinc compounds      Yes
7.     Barium and barium compounds                 Yes
8.     Ethylene glycol                             No
9.     Sodium nitrate*                             No
10.    Nitric acid*                                No

* Nutrient guidance is being developed




                                              27                  Report No. 2000-P-001385-00023
                          Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                                  APPENDIX I
                                  AGENCY RESPONSE

                                      September 26, 2000

MEMORANDUM

SUBJECT:      Draft Report on EPA’s National Water Quality Standards Program
              Assignment No. 1999-001385

FROM:         J. Charles Fox
              Assistant Administrator for Water

TO:           Connie Walton
              Audit Manager

      Attached is our response to your draft report on the Environmental Protection Agency’s
(EPA) Water Quality Standards Program. We appreciate the opportunity to respond to your draft
recommendations before you finalize the report.

       Although we agree with many of the findings and recommendations in your draft report,
we also disagree with some of the conclusions and statements. In the attachment we have offered
some clarifications and explanations to put your recommendations in context with other aspects of
the Water Quality Standards Program that the draft report did not mention. In addition to
responding to the specific recommendations contained in the draft report, we have also included
comments on other sections of the draft report or have provided alternate language.

        If you have any questions about the attached responses to the recommendations contained
in the draft report, please contact me at 202-260-5700 or Betsy Southerland, Director of the
Standards and Applied Science Division, at 202-260-3966.

Attachment




                                               28                  Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


     Office of Water response to the Office of the Inspector General’s draft
        recommendations on EPA’s Water Quality Standards Program



Recommendation 2-1.           Use data generated by other program offices to determine those
                              toxic pollutants that warrant water quality criteria development
                              and develop such criteria.

Recommendation 2-2.           Develop a process to determine which pollutants should be
                              included on the priority pollutant list or develop an equivalent
                              approach.

Generally, the Office of Water agrees with the thrust of these recommendations – to develop a
systematic approach for setting criteria development priorities that is driven by environmental
concerns, and that uses data generated by other programs. The Office of Water believes,
however, that the Office of the Inspector General’s recommendations are too narrowly focused on
toxic pollutants. EPA is responsible for developing criteria for all types of pollutants under the
Clean Water Act, including toxic, conventional, and non-conventional.

Many elements of such a systematic approach are already in place and in use. For example, on
September 3, 1998, the Office of Water published for public comment the Water Quality Criteria
and Standards Plan--Priorities for the Future (63 FR 47024). The criteria development priorities
in the plan included initiatives to develop nutrient criteria and assessment methods to better
protect aquatic life and human health, criteria for microbial pathogens to better protect human
health during water recreation, and biocriteria to provide an improved basis for aquatic life
protection, and to evaluate possible new initiatives for sedimentation, flow, and wildlife criteria.
Each of these initiatives was designed to help EPA take a leadership role in resolving critical
environmental problems. For example, the Office of Water included the initiative to develop
nutrient criteria because EPA’s recent assessments of national water quality cited nutrients
(nitrogen and phosphorus) as one of the leading causes of water quality impairment in our
Nation's rivers, lakes and estuaries. Nutrients were also implicated with the large hypoxic zone in
the Gulf of Mexico, and Pfiesteria-induced fish kills and human health problems in the coastal
waters of several East Coast States as well as events in the Gulf States. The Office of Water has
been using the Criteria and Standards Plan, as well as the public comments that were received on
it, to help establish our priorities for developing criteria. In the two years since the plan was
published, many of the 134 line item activities (some of which have expanded since publication)
have been completed or are underway (101 activities are completed or in progress). We will be
conducting a close review of accomplishments under the plan and updating it as appropriate.
Resources have been limited and the Office of Water made difficult choices to increase funding in

                                                29                   Report No. 2000-P-001385-00023
                            Proactive Approach Would Improve EPA’s Water Quality Standards Program


other priority areas such as non-point sources, addressing unmet tribal needs, and TMDLs. We
will re-examine funding for water quality criteria as we develop program plans for FY 2001 and
beyond.

In addition to the Criteria and Standards Plan, the Office of Water is undertaking other efforts
that will result in more systematic priorities for criteria development. In August 2000, the Office
of Science and Technology held the first meeting of a National Work Group on Water Quality
Standards, supported through a cooperative agreement with the Association of State and
Interstate Water Pollution Control Administrators (ASIWPCA). One of the work group’s main
functions is to establish joint priorities between EPA and the States for future water quality
criteria development. Additionally, on August 14, 1998 the Office of Water published the draft
Methodology for Deriving Ambient Water Quality Criteria for the Protection of Human Health
(63 FR 43755), which set forth EPA’s proposed approach for developing new human health
criteria, including criteria for priority toxic pollutants. In setting priorities for developing these
criteria, EPA will take into account public comments on the methodology. We plan to publish the
final methodology in the near future.

In several instances, the Office of Water has adjusted or will adjust priorities for criteria
development to reflect information on the environmental occurrence of pollutants, including
information from other offices. For example, the proposed human health methodology discussed
above included environmental ranking factors such as TRI data for prioritizing criteria
development. As another example, the Office of Water used environmental data including the
National Sediment Inventory in setting priorities for development of sediment guidelines. In
addition, the national study of contaminants in fish in lakes and reservoirs now underway will be
used in setting priorities for criteria development. Furthermore, the Office of Water frequently
coordinates with the Office of Prevention, Pesticides, and Toxic Substances (OPPTS) for
information on the toxicity and bioaccumulation potential of chemicals that OPPTS is registering
for commercial use.

In light of these and other ongoing efforts to take a leadership role in developing water quality
criteria, the Office of Water does not believe that its approach can be characterized as “reactive,”
or that criteria development for toxic pollutants is being “hindered.” Although there may be cases
where the Office of Water’s priority-setting process has favored development of, say, nutrient
criteria, over developing aquatic life criteria for more toxic pollutants, the Office believes such
priority setting is appropriate and necessary, and well-grounded in assessments of the relative
environmental importance of these issues.

With regard to the priority pollutant list, the Office of Water believes there may be very limited
environmental benefits from adding pollutants to the list. EPA has the authority to require States
and authorized Tribes to adopt numeric criteria for any pollutant, regardless of whether the

                                                 30                    Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


pollutant is on the priority pollutant list. Under the CWA section 303(c)(4)(B), the Administrator
can determine at any time that new or revised standards are necessary to protect public health and
the environment. The Office of Water routinely assists the EPA Regions in reviewing State and
Tribal water quality standards programs to identify missing or inadequate criteria for both non-
priority pollutants and priority pollutants. When such deficiencies are identified, the Region
recommends to the Administrator that she exercise her authority under CWA section
303(c)(4)(B) to find that new or revised standards are necessary. EPA has exercised this
authority in the past and will continue to do so, as necessary, including findings to address
numeric criteria for non-priority pollutants.


Recommendation 3-1.           Send at least one employee from each EPA Regional Office to the
                              U.S. Fish and Wildlife course which offers guidance on how to
                              develop biological evaluations.

The Office of Water agrees with this recommendation. The Memorandum of Agreement (MOA)
between EPA and the Services, when signed later this fall, commits all three agencies to increased
cross-program training. There have been some examples of such training to date, but such efforts
should be expanded. For example, the Office of Water frequently reserves space for Service
personnel in the Water Quality Standards Academies, and the U.S. Fish and Wildlife recently held
a training course which some EPA staff attended. Limited travel funds and limited slots in the
U.S. Fish and Wildlife course, however, have made it difficult to send as many people as EPA
would like. Cross-program training is a priority for the Office of Water and we are working with
the U.S. Fish and Wildlife office to secure space in future courses. We are encouraging the EPA
Regional Offices to make this a priority and to allocate travel funds for Water Quality Standards
Regional personnel.


Recommendation 3-2.           Ensure that EPA Regions share with their counterparts
                              information on how to develop biological evaluations and best
                              practices in consulting with the Services.

The Office of Water agrees with this recommendation. There are a number of efforts underway
to ensure that information is freely shared among the Regions. The Office of Water collects final
biological evaluations from the Regions to serve as a repository of information on what the
Agency has said to date regarding specific chemicals and specific species. Headquarters is further
consolidating and sorting the information contained in this repository to make the information
more user friendly (e.g., collapsing by chemical and species). Information and analyses developed
to support the national criteria consultation called for in the draft Memorandum of Agreement
between EPA and the Services will assist individual Regional consultations as well. Also,

                                                31                  Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


Headquarters has a staff person assigned to each Region to serve as a Regional liason. Among
other things, Regional liasons keep their individual Region informed of new biological evaluations
from other Regions that may help ongoing work in their Region. Regional liasons also help
ensure that new information or approaches for streamlining consultation are communicated from
one Region to another.


Recommendation 3-3.           Consider determining the feasibility of rotational opportunities
                              between EPA and Services staff to better understand complexities
                              when dealing with threatened and endangered species issues, assist
                              in the development of biological evaluations, and improve the
                              relationship between the agencies.

Generally, the Office of Water agrees with this recommendation. Rotational opportunities
between EPA and Services staff could be a part of the increased training specified for in the draft
MOA. The Office of Water is currently focused on finalizing the MOA. Once the MOA is final,
EPA can focus its resources on implementing the MOA, including increased training between the
Agency and the Services.


Recommendation 3-4.           Where appropriate, use the results of the EPA and Department of
                              Interior toxicity tests for determining the protectiveness of EPA
                              criteria on listed species.

Generally, the Office of Water agrees with this recommendation. Data from EPA and Department
of the Interior laboratories have been and will continue to be used for such screening. This type
of work has been done for mussels as well as for endangered finfish species. The Office of Water
has also used data from the Department of the Interior and other sources in criteria development.
Before using the results to modify criteria, however, all studies must go through the Agency’s
peer review processes to ensure scientific defensibility. The Office of Water must also determine
how best to include consideration of threatened and endangered species in criteria derivation
either by providing an adjustment similar to that provided for commercially or recreationally
important species, by providing a site specific criteria modification methodology, or by some
other mechanism. The planned national consultation on existing water quality criteria may
provide a forum for discussing and resolving these issues with the Services.


Recommendation 3-5.           Encourage participation by the Services when developing future
                              draft water quality criteria.


                                                32                    Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


The Office of Water agrees with this recommendation. This approach would help identify
threatened and endangered species concerns early in the process. EPA’s development of revised
selenium criteria is a good example of how this coordination can work well when staff are
available. The Services were invited to participate and became involved early in EPA’s re-
evaluation of its selenium criteria. The Services agreed to serve as advisors for the development
of selenium criteria, have participated in the peer consultation workshop, have reviewed materials
and data, and have accepted a non-voting position on the work group. This type of participation
has occurred in the past with the Water Quality Criteria Guidelines Committee on which the
Services also sat as advisors. For the Services to participate fully and regularly in criteria
derivation and guideline development, the two Agencies will need to negotiate a process that
addresses both Agencies’ statutory and regulatory obligations and ensures consistency in the
application of the guidelines, scientific process, and peer review requirements of EPA. EPA has
initiated discussions with the Services to consult on EPA’s 45 aquatic life criteria to ensure the
criteria protect threatened and endangered species and their critical habitat. We have already
reached agreement on a technical protocol for evaluating criteria. This consultation will be
conducted pursuant to a Memorandum of Agreement the Agency and the Services are hoping to
finalize this fall. Consultation on the criteria will include discussion of the underlying
methodologies and science.


Recommendation 3-6.           As set forth in the joint MOA signed between EPA and the
                              Services, encourage collaborative processes with EPA regions,
                              states, and tribes, and the Services in conducting triennial review
                              and standards revisions.

The Office of Water agrees with this recommendation. The Office of Water hopes to sign a final
MOA early this fall. To date, EPA has had difficulty obtaining participation from the Services’
Field Offices in scoping sessions with the states early on in the triennial review. EPA Regional
offices will continue to encourage such participation.


Recommendation 4-1.           Develop guidance on antidegradation implementation.

The Office of Water agrees with this recommendation. The Office of Water has had an ongoing
dialogue with stakeholders on antidegradation. This dialogue started with the Advance Notice of
Proposed Rulemaking (ANPRM) that EPA published in 1998 and continued in the Total
Maximum Daily Load (TMDL) rulemaking. We will work with the State/EPA National Work
Group on Water Quality Standards to help determine what priority to assign to developing
additional guidance on antidegradation.


                                                33                  Report No. 2000-P-001385-00023
                           Proactive Approach Would Improve EPA’s Water Quality Standards Program


Recommendation 4-2.           Use regional guidance as an aid when developing the
                              implementation guidance.

The Office of Water agrees with this recommendation. The Office of Water always uses existing
Regional guidance, as well as State guidance, as an aid when developing new National guidance.


Recommendation 4-3.           Require states to report on how their waters meet requirements in
                              the antidegradation policy.

The Office of Water does not agree with this recommendation. Neither the Clean Water Act nor
EPA’s existing regulations contain such a reporting requirement. Furthermore, it is not clear how
“waters” can “meet requirements in the antidegradation policy,” since the policy governs State or
Tribal decisions concerning whether certain activities should be allowed or not allowed to lower
water quality, depending on specific circumstances. For example, a State or Tribe may decide to
allow a lowering of water quality pursuant to the provisions of 40 CFR 131.12(a)(2) in the case of
a proposed increased discharge to one “high quality water” but not in the case of another
discharge in a different such water. Subsequent monitoring and assessment information for the
two waters would show different levels of water quality, but in both cases the antidegradation
policy would have been carried out properly. EPA would likely need to modify its regulations in
order to implement this recommendation. It is not clear what the benefits of such a change would
be, nor whether such a reporting requirement could be structured to provide meaningful
information.




                                               34                   Report No. 2000-P-001385-00023
                      Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                             APPENDIX II
                                ABBREVIATIONS




EPA        Environmental Protection Agency

GAO        General Accounting Office

OIG        Office of Inspector General

Services   U.S. Fish and Wildlife Service and National Marine Fisheries Service

TRI        Toxics Release Inventory

OPPTS      Office of Prevention, Pesticides, and Toxic Substances




                                           35                  Report No. 2000-P-001385-00023
                       Proactive Approach Would Improve EPA’s Water Quality Standards Program


                                                                            APPENDIX III
                                 DISTRIBUTION



Office of Inspector General
Inspector General
Deputy Assistant Inspector General for Internal Audits
Headquarters Audit Liaison
Divisional Offices

Headquarters Office
Assistant Administrator for Water
Agency Followup Official (2710)
Agency Followup Coordinator (2724)
Office of Water Audit Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations

Regional Office
Each Regional Administrator




                                           36                  Report No. 2000-P-001385-00023
